Motor Vehicle Fleet
Operations




Smithsonian Needs to
Update and Implement
Vehicle-Related Policies and
Procedures




Office of the Inspector General
Report Number A-13-06
March 27, 2014
         Smithsonian Institution
         Office of the Inspector General
                                Smithsonian Needs to Update and Implement

In Brief                        Vehicle-Related Policies and Procedures
                                Report Number A-13-06, March 27, 2014



Why We Did This Audit            What We Found

The Smithsonian operates         We found that Smithsonian management: (1) developed
a vehicle fleet program to       policies based on best practices for fleet management; (2)
benefit the mission and          invested resources in a fleet management information system
functions of the Institution.    (FleetWave); and (3) appeared to adhere to Executive Order
                                 13514. However, there were internal control weaknesses in the
Our audit objectives were        implementation of these policies and procedures.
to evaluate the controls         Management did not implement main components of its policy
management has                   such as enforcing the: Vehicle Coordinator Program (VC); use
established to minimize          of vehicle trip logs; and use of Form SI-3805, Justification For
the costs of motor vehicle       Acquisition of a Motor Vehicle or Off-Highway Equipment. We
operations, including            also determined that the policy addressing driver licenses is
maintenance, petroleum           outdated.
use, purchasing, and
disposal. Additionally, we       In addition, we identified data discrepancies between the
assessed whether the             systems that report on the Smithsonian’s fleet. We identified
Smithsonian is achieving         37 vehicles, with a total purchase price of approximately
the sustainability goals         $797,703, that were recorded in FleetWave but were not
outlined in Executive Order      included on the Enterprise Resource Planning (ERP) Financials
(EO) 13514, Federal              vehicle asset list. Further, we identified 20 vehicles, with a
Leadership in                    total purchase price of $253,095, that were on the ERP vehicle
Environmental, Energy,           asset list but were not recorded in FleetWave.
and Economic
                                 We also found that there were no policies and procedures to
Performance.
                                 ensure that fuel cards were assigned in FleetWave. Fourteen
                                 active cards (or 29 percent of cards sampled) were not
Background
                                 assigned to a specific vehicle in FleetWave.
The vehicle fleet program        What We Recommended
was established to ensure:
(1) the availability of safe     To strengthen fleet management internal controls, we
and reliable vehicles, (2)       recommended that management: update and fully implement
timely maintenance and           policies and procedures to include the VC program, trip logs,
repair of vehicles, and (3)      and SI-3805; develop procedures to periodically reconcile
the monitoring of the fleet      vehicle information between FleetWave and ERP; and develop
size and utilization of          and implement policies and procedures to ensure the proper
vehicles.                        control of fleet cards.
                                 Management concurred with our findings and
During our review, the           recommendations and has planned corrective actions to
fleet consisted of 487           address the recommendations. We will continue to monitor
vehicles made up of              management’s progress towards completion of these
sedans, buses, trucks,           recommendations.
vans, and sport utility          For additional information or a copy of the full report, contact the 

vehicles.                        Office of the Inspector General at (202) 633-7050 or visit 

                                 http://www.si.edu/oig. 

          Smithsonian Institution                                                 Memo

          Office of the Inspector General


  Date    March 27, 2014

    To    Kendra Gastright, Director, Office of Facilities Management and Reliability,
            Office of Facilities Engineering and Operations
          Susan Avery, Associate Director, Personal Property Management,
            Office of Contracting and Personal Property Management

     cc   Albert Horvath, Under Secretary for Finance and Administration/
            Chief Financial Officer
          Nancy Bechtol, Director, Office of Facilities Engineering and Operations
          Dottie Leffler, Director, Office of Contracting and Personal Property
            Management
          Cargie Vaughn, Associate Director, Museum Support Services, Office of
            Facilities Management and Reliability
          Porter N. Wilkinson, Chief of Staff, Board of Regents
          Patricia Bartlett, Chief of Staff, Office of the Secretary
          Judith Leonard, General Counsel
          Cindy Zarate, Executive Officer, Office of the Under Secretary for Finance
            and Administration/Chief Financial Officer 

          Stone Kelly, Program and Budget Analyst, Office of Planning,

            Management and Budget 


 From     Epin Christensen, Acting Inspector General

Subject   Audit Report on Motor Vehicle Operations, A-13-06

          Attached please find a copy of our final report titled Smithsonian Needs to
          Update and Implement Vehicle-Related Policies and Procedures.

          We made five recommendations to strengthen fleet management internal
          controls. Specifically, we recommended that management update and fully
          implement fleet policies and procedures and reconcile vehicle data between
          FleetWave and the Smithsonian’s vehicle asset list found in the Enterprise
          Resource Planning system. We also recommended that management
          develop and implement policies and procedures to ensure the proper control
          of fleet cards including the assignment of fuel cards to vehicles in
          FleetWave.

          We appreciate the courtesy and cooperation of all Smithsonian staff during
          this review.

          Please call me or Joan Mockeridge, Acting Assistant Inspector General for
          Audits at 202.633.7050 if you have any questions.


          MRC 524
          PO Box 37012
          Washington DC 20013-0712
          202.633.7050 Telephone
          202.633-7079 Fax
SMITHSONIAN INSTITUTION                                   OFFICE OF THE INSPECTOR GENERAL



                                        Introduction

The Smithsonian operates a vehicle fleet program to benefit the mission and
functions of the Institution. This program was established to ensure: (1) the
availability of safe and reliable vehicles, (2) timely maintenance and repair of
vehicles, and (3) the monitoring of the fleet size and utilization of vehicles. At the
time of our audit, the Smithsonian’s vehicle fleet consisted of 487 vehicles made up
of sedans, buses, trucks, vans, and sport utility vehicles. These vehicles use various
types of fuels including gasoline, diesel, and alternative fuels such as bio-diesel, E­
85, and electricity.

The objectives of this audit were to evaluate the controls management has
established to minimize the costs of motor vehicle operations, including
maintenance, petroleum use, purchasing, and disposal. Additionally, we assessed
whether the Smithsonian is achieving the sustainability goals outlined in Executive
Order (EO) 13514, Federal Leadership in Environmental, Energy, and Economic
Performance.

A detailed description of our objectives, scope, and methodology is included in
Appendix A.

                                      Results in Brief

Smithsonian management had developed policies based on best practices for fleet
management and invested resources in a fleet management information system to
improve oversight. However, we found that fleet policies and procedures were
never fully implemented and need to be updated. In addition, there were multiple
data discrepancies between the systems that report on the Smithsonian’s fleet. If
management improves and enforces fleet management policies and procedures, we
believe that cost savings may be realized by the reassignment of vehicles rather
than new acquisitions. Set forth below are our findings in these areas and the
recommended actions to address internal control 1 weaknesses.

Although comprehensive policies governing the oversight of the vehicle
management program existed, management did not execute key elements of the
program. Specifically, management in the Office of Facilities Maintenance and
Reliability (OFMR) did not fully implement or enforce the vehicle coordinator
program or the use of vehicle logs and vehicle justification forms.



  The Government Accountability Office Standards for Internal Control in the Federal
1

Government states that internal controls should include the plan, methods, policies, and
procedures used to fulfill an organization’s mission, strategic plan, goals, and objectives.
Internal controls serve as a defense in safeguarding assets by preventing and detecting
unauthorized acquisition, use, or disposition of an entity’s assets.
SMITHSONIAN INSTITUTION                            OFFICE OF THE INSPECTOR GENERAL


To strengthen fleet management controls we made one recommendation to the
OFMR Director, to update and implement the vehicle management handbook and
applicable forms.

We identified two systems that Smithsonian uses to capture data and provide
reports on the vehicle fleet; however, the data in these systems did not align.
These issues resulted in inaccurate information being reported on the vehicle fleet
to Smithsonian management and other outside organizations, as well as in the
financial records. We also found that not all fleet cards used for purchasing fuel
were associated with a designated vehicle in the vehicle fleet information system
known as FleetWave. This prevents management from being able to accurately
assess expenses by vehicle.

We made two recommendations for management to reconcile the different systems
that report vehicle data and one recommendation that OFMR ensure that all vehicle
fleet cards are properly assigned in FleetWave. We also made two
recommendations that OFMR develop and implement policies and procedures for
fleet cards.

Management appears to be adhering to EO 13514 by developing a Strategic
Sustainability Performance Plan, acquiring alternative fuel vehicles, and reducing
petroleum usage. We based our conclusions regarding petroleum usage and
alternative fuel consumption on the data reported in the Sustainability Performance
Plan.

Management concurred with our findings and recommendations and has planned
corrective actions to address the recommendations. Although management
comments were provided by OFMR, we confirmed with the Office of Contracting and
Personal Property Management (OCON&PPM) that their comments were
incorporated into the response. Please refer to Appendix B for management’s
complete response.

                                   Background

Smithsonian Policy

Smithsonian Directive (SD) 421, Motor Vehicle Management, sets forth the general
policies related to Smithsonian’s fleet management practices. The Smithsonian is
not subject to certain laws and regulations to which federal agencies may be
subject, but its motor vehicle fleet is operated in a manner generally consistent
with such laws and regulations, including EO 13514 and General Services
Administration Federal Property Management Regulation.

SD 421 has designated OFMR as the office responsible for the efficient operation
and maintenance of the Smithsonian motor vehicle fleet. As a result, OFMR
oversees vehicle management and should ensure that units comply with this
directive.


                                          2
SMITHSONIAN INSTITUTION                            OFFICE OF THE INSPECTOR GENERAL


The companion Smithsonian Staff Handbook (SSH) 421, Vehicle Management,
provides guidance and identifies fleet management procedures. These procedures
are designed to provide for the safe, economic, and efficient operation and
maintenance of Smithsonian vehicles.

FleetWave

The Smithsonian uses FleetWave, a web-based fleet management information
system utilized by OFMR, to manage and oversee the vehicle fleet program. This
system stores acquisition, maintenance, and fuel consumption information for all
vehicles in the fleet.

US Government Accountability Office (GAO) Report GAO-13-659, Federal
Vehicle Fleets, Adopting Leading Practices Could Improve Management

GAO reviewed federal agencies’ efforts to reduce fleet costs and issued a report in
July 2013 recommending improvements to federal fleet management. GAO
identified three leading practices for fleet management:

   1. maintaining a well-designed fleet-management information system
   2. analyzing life-cycle costs to inform investment decisions, and
   3. optimizing fleet size and composition

GAO found problems related to these practices at all the agencies they reviewed.
We identified similar issues with the Smithsonian’s management and oversight of
its vehicle fleet.

                                   Results of Audit

We evaluated the controls management had established to minimize the costs of
motor vehicle operations, including maintenance, petroleum use, purchasing, and
disposal. We found that Smithsonian management had developed best practices for
fleet management and invested resources in a fleet management information
system to improve oversight. However, we found internal control weaknesses in the
implementation of Smithsonian’s policies and procedures that affect the
management of maintenance, petroleum use, and purchasing. We also identified
data discrepancies between the systems that report on the Smithsonian’s fleet.
Additionally, we assessed whether the Smithsonian was achieving sustainability
goals in accordance with EO 13514.

I. Smithsonian Did Not Implement or Enforce Fleet Management
   Policies and Procedures

We found that OFMR did not implement, enforce, or update some of the
Smithsonian policies and procedures outlined in SD 421 or its companion
document, SSH 421. Specifically, management did not implement or enforce the:



                                          3
SMITHSONIAN INSTITUTION	                             OFFICE OF THE INSPECTOR GENERAL


   •	 Vehicle Coordinator program,

   •	 Use of Form SI-3867, Smithsonian Institution Vehicle Trip Logs, to capture
      utilization, and

   •	 Use of Form SI-3805, Justification For Acquisition of a Motor Vehicle or Off-
      Highway Equipment.

Additionally, SSH 421 is outdated because it states that a separate operator’s
identification card (OIC) is required to operate all Smithsonian vehicles. However,
we found that as long as the operator has a valid driver’s license, an OIC is not
necessary except for when operating specialized equipment.

   A. Smithsonian Did Not Fully Implement the Vehicle Coordinator

      Program


OFMR did not fully implement the Vehicle Coordinator (VC) program—a program
intended to serve as an important internal control for overseeing the Smithsonian’s
fleet. The Smithsonian’s fleet management relies heavily on the VCs to implement
and enforce fleet policies and procedures. VCs are the key individuals, and OFMR
management’s first points of contact at the units, for fleet-related matters.

According to SSH 421, VCs exercise management and control over all assigned
vehicle and equipment assets at their respective locations, including periodic
evaluations to determine whether these assets are warranted.

SSH 421 outlines the VC responsibilities, such as:

   •	 Evaluating SI-3805 and providing written responses to requestor;
   •	 Preparing an analysis that compares the lease, purchase, and reimbursement
      prices;
   •	 Issuing and controlling keys and fuel cards;
   •	 Training staff on applicable policies and procedures;
   •	 Establishing procedures for maintaining trip logs;
   •	 Developing utilization goals for all assigned vehicles and equipment; and
   •	 Generating a utilization report for each vehicle.

We found that by not implementing the VC program, OFMR is unable to adequately
enforce fleet management policies and procedures. We believe this program is an
integral control for vehicle oversight.

Fleet Management acknowledged that its primary reason for not implementing the
VC program was because the program did not take precedence over other priorities.
By not fully implementing this program, OFMR cannot effectively enforce SSH 421.




                                          4
SMITHSONIAN INSTITUTION	                              OFFICE OF THE INSPECTOR GENERAL


   B. Vehicle Utilization Data Incomplete

The Smithsonian did not capture complete data on its vehicle utilization, thereby
limiting management’s ability to optimize its fleet size and composition. In its
report, GAO identified fleet optimization as one of three leading practices in federal
fleet management; it recommends using vehicle utilization and other factors to
identify underutilized vehicles and determine the optimal number of vehicles.
Specifically, GAO recommends the following methodology:

   •	 establishing specific vehicle utilization criteria to justify mission essential
      vehicles;

   •	 conducting an assessment of vehicle utilization to determine how and the
      extent to which vehicles are used and apply the criteria to each vehicle;

   •	 identifying underutilized vehicles and determining the optimal number and
      type of vehicles needed in the fleet inventory by considering utilization,
      mission needs, and other alternatives such as public transportation; and

   •	 reviewing and updating this type of study annually, or sooner, as mission
      needs change.

In SD 421, OFMR is tasked to develop minimum utilization goals for each class of
vehicle, and compare these goals to actual usage on a periodic basis. Further, in
SSH 421, VCs are assigned the responsibility to develop utilization goals. VCs are
also tasked with generating an annual utilization report for each vehicle.
Establishing procedures for capturing utilization records in the form of trip logs are
also the responsibility of VCs.

To ensure that the Smithsonian has accurate data to determine vehicle utilization,
SSH 421 requires vehicle operators to record vehicle trip information on SI-3867,
Vehicle Trip Log. At a minimum, trip logs should include the date, pickup time
requested, total time, and mileage used.

Further, in the Guide to Federal Fleet Management, the General Services
Administration (GSA) recommends that fleet managers analyze utilization data
quarterly and take appropriate action when usage is falling short or excessively
surpassing the guidelines.

We found that utilization reports referenced in SSH 421 did not exist and that trip
logs were generally not completed. For utilization testing purposes, we requested
230 vehicle trip log entries to review; of those requested, 204 (or 89 percent) did
not exist. According to Fleet Management, they are reevaluating their utilization
review process as referenced in SSH 421 to ensure the vehicle purpose is taken into
account and not just the mileage of the vehicle. For example, Fleet Management
stated that some vehicles are used as “backshops” on job sites and serve an
important purpose even though they have a low mileage rate.


                                            5
SMITHSONIAN INSTITUTION	                             OFFICE OF THE INSPECTOR GENERAL


Since vehicle logs were not available, we relied on data obtained from vehicle fleet
card records in an attempt to analyze utilization. Using this information, we
identified five vehicles—valued at approximately $93,000 at the time of purchase—
with infrequent fuel purchases that may be underutilized. Depending on the
purpose and intended use of these vehicles, OFMR should consider reassigning
these vehicles to other units.

We believe the main reason that utilization analyses were not completed is because
OFMR has not implemented the VC program Smithsonian-wide. As stated
previously, one of the VC’s responsibilities is to establish goals and report on
utilization.

Without management enforcing the policies in SSH 421, Fleet Management does
not have all the data necessary to assess the utilization of the vehicle fleet.

   C.	 SI-3805 Vehicle Authorization Form is not Used

We determined that units were not using SI-3805, Vehicle Justification for
Acquisition of a Smithsonian Motor Vehicle or Off-Highway Equipment when
submitting a request to purchase new vehicles.

On SI-3805, units should include descriptions of (1) what the vehicle will be used
for; (2) who will be using the vehicle; and (3) why the existing fleet will not satisfy
the new requirement.

Moreover, SSH 421, Section 4.2 Vehicle Authorization Procedures provides a more
detailed requirement by stating that a user submits the SI-3805 to provide the
written authorization and identify:

    •	 Purpose for which the vehicle is needed, including type and size;

    •	 Impact of not having a full-time vehicle or piece of equipment assigned;

    •	 Whether the vehicle is an addition to the fleet or replacement of an existing
       vehicle; and

    •	 Expected use in terms of miles, hours, or days per year, whichever is
       applicable.

OFMR did not enforce the use of SI-3805 when units requested acquisition of
vehicles. Instead, units requested new vehicles through e-mails to OFMR. These
e-mails often do not contain all the data required by SI-3805. Consequently, we
could not substantiate the justification for the vehicles in the fleet.

We also determined that SI-3805, even if used by the units, does not appear to
meet all the requirements outlined in SSH 421. Specifically, the form does not




                                           6
SMITHSONIAN INSTITUTION	                            OFFICE OF THE INSPECTOR GENERAL


require the requestor to address the impact of not acquiring the vehicle or its
expected use.

   D. Operator’s License is No Longer Required

We determined that SSH 421, section 4.6 Driver Licensing and Driving Records, is
outdated. Specifically, SSH 421 states that a valid SI-3803, Motor Vehicle
Operator’s Identification Card, is required for all employees, fellows, interns and
volunteers who operate Smithsonian motor vehicles and equipment. However,
according to fleet management, we found that this form is not used by vehicle
operators as long as the operator has a valid driver’s license; therefore an OIC is
not necessary except for when operating specialized equipment.

                                       *****
Not implementing policies and procedures outlined in SSH 421 creates a potential
risk of funding misuse and missed opportunities for cost savings. For example, by
not implementing the VC program, no individual is accountable for oversight of
vehicles within a unit. Consequently, mileage logs and vehicle utilization are not
monitored, potentially resulting in misuse or underutilization of vehicles that could
be reassigned to other units.

We believe that reassigning underutilized vehicles to other Smithsonian programs
could lead to cost savings. For example, depending on a unit’s vehicle
requirements, instead of acquiring new vehicles, reassigning the five underutilized
vehicles identified may save the Smithsonian money.

By not enforcing the use of SI-3805 to justify the purchase of a vehicle, funds could
be misused or unwisely spent and vehicles could be acquired that do not meet
mission requirements.

Recommendations:

To strengthen fleet management internal controls, we recommend that the Director
of OFMR:

   1.	    Update and fully implement SSH 421 including assigning VCs to each unit
          where applicable and enforcing the use of Forms SI-3867, Smithsonian
          Institution Vehicle Trip Logs, and SI-3805, Justification For Acquisition of
          a Motor Vehicle or Off-Highway Equipment.

II. Smithsonian’s Fleet Management Computer Processed Data is
    Incomplete

Assessing the reliability of computer processed data is a standard part of our audit
testing to ensure accuracy of the audit information. During the course of our testing
we identified many data discrepancies between the various systems that manage
and report on the Smithsonian’s vehicle fleet operations.


                                          7
SMITHSONIAN INSTITUTION                              OFFICE OF THE INSPECTOR GENERAL


GSA’s Federal Fleet Report is the comprehensive source of information on annual
inventory, cost, use, and fuel consumption of the fleet of motor vehicles operated
by the federal government. This report is generated by the Federal Automated
Statistical Tool (FAST), a web-based system that federal agencies are required to
populate annually with their fleet-related data.

According to SD 421, the Smithsonian shall establish and maintain appropriate
accounting and internal controls to ensure legality, reasonableness, and
appropriateness of all vehicle fleet management and related activities, payments,
and expenditures.

Enterprise Resource Planning (ERP) Financials is a Smithsonian-wide computer
system that automates a majority of the financial functions including: purchasing,
accounts payable, accounts receivable, asset management, and the general ledger.

In addition, SD 315, Personal Property Management, establishes the policies to
ensure the proper management and control of Smithsonian personal property
including the classification, identification, use, maintenance, care, accountability,
inventory, and disposition of all personal property.

OCON&PPM is responsible for maintaining the data in the Personal Property Asset
Management System of ERP. Further, the Office of Finance and Accounting (OF&A)
is responsible for the internal and external financial reporting. OCON&PPM must
coordinate with OF&A to ensure accurate accounting for capitalized property in the
Smithsonian financial records.

      A. FleetWave and ERP Do Not Reconcile

We found discrepancies between the Smithsonian’s ERP and FleetWave systems.
Similarly, the GAO report on federal vehicle fleets found that other agencies’ fleet
management information systems were not properly integrated with other key
agency systems.

FleetWave is utilized by OFMR to oversee the management of the vehicle fleet. In
addition, OFMR uses data from the FleetWave system to report to FAST. Further,
since vehicles meet the definition of capitalized property as outlined in SD 315, they
are tracked in the Asset Management System of ERP. Data in FleetWave and ERP
should align to ensure the accuracy of vehicle data reported to FAST and the
Smithsonian financial statements.

We identified 37 vehicles, with a total purchase price of approximately $797,703,
that were recorded in FleetWave, but were not included on the ERP vehicle asset
list. We determined that these vehicle acquisitions took place between 1987 and
2011; 21 of the 37 occurred in 2010. During the course of the audit, OCON&PPM
updated the asset records to include the missing 37 vehicles.




                                           8
SMITHSONIAN INSTITUTION	                           OFFICE OF THE INSPECTOR GENERAL


Further, we identified 20 vehicles, with a total purchase price of $253,095, that
were on the ERP vehicle asset list but were not recorded in FleetWave. Since
discussing this issue with Fleet Management, the majority of these vehicles were
updated in FleetWave.

We believe that communication problems existed in the past between OFMR and
OCON&PPM that resulted in inaccurate vehicle information in both systems.
Additionally, there was no requirement for reconciling these systems to ensure the
accuracy of the data. OCON&PPM staff stated that they recognized this
reconciliation issue about a year ago and were working with the Smithsonian’s
Office of the Chief Information Officer to add a field in ERP to include the vehicle
identification number from FleetWave. The addition of this field will streamline the
reconciliation process for both OCON&PPM and OFMR staff.

The various data discrepancies resulted in inaccurate information reported to
Smithsonian management and GSA. Although immaterial in nature, these
discrepancies also affected the Smithsonian’s financial statements.

      B. Management Did Not Assign Some Fleet Cards to Specific Vehicles
        in FleetWave

The fleet card is a government charge card used to purchase fuel and pay for
authorized repairs, parts, or services for government owned or leased vehicles in
support of official government business.

The Smithsonian participates in GSA’s government-wide charge card program. OMB
Circular A-123, Appendix B, prescribes policies and procedures to agencies
regarding how to maintain internal controls that reduce the risk of fraud, waste,
and error in government charge card programs. Therefore, we believe the
Smithsonian should follow the best practices, as set forth in Appendix B.

According to OMB, in order to mitigate risks of misuse, charge card managers
should:

   •	 Implement strict internal controls that mitigate charge card risks to the
      greatest extent possible;

   •	 Perform periodic reviews of spending and transaction limits to ensure

      appropriateness;


   •	 Conduct internal charge card program reviews on a regular basis to ensure
      internal control mechanisms are adequate; and

   •	 Perform periodic reviews of the numbers of charge card accounts in use for
      appropriateness of numbers as well as evaluating the span of control for
      approving officials.




                                          9
SMITHSONIAN INSTITUTION	                            OFFICE OF THE INSPECTOR GENERAL


SD 322, Charge Card Program, sets forth general policy regarding the application
for, issuance, and use of government-sponsored charge cards. According to SD
322, OFMR is responsible for establishing, maintaining, and promulgating the
Smithsonian-wide policies and procedures for receiving and assigning use of fleet
cards and oversight of compliance with the policies and procedures. Specifically, the
procedures for the management and proper use of fleet cards should be detailed in
SD 322 Part 3 – Fleet Cards.

Based on our discussions with OFMR, it is their practice to assign fleet cards to
specific vehicles in the FleetWave system. However, we found that of the 49 fleet
cards we sampled, 14 active cards (or 29 percent) were not assigned to a specific
vehicle in FleetWave. We identified these cards by downloading the fuel purchase
transaction data from the fleet card vendor and then searching for the card
information in the FleetWave system.

We found that there were no policies and procedures to ensure that fuel cards were
assigned in FleetWave. In fact, SD 322 Part 3 does not exist; therefore OFMR did
not fulfill its responsibilities to develop these procedures.

Fleet Management is unable to obtain accurate vehicle costing information if the
fuel purchases are not tied to the vehicle in the fleet management information
system. Furthermore, fleet cards not assigned to a vehicle in the FleetWave system
are at risk for less oversight by management, and poor management of fuel cards
can lead to abuse and misuse of the cards.

Recommendations:

To ensure accurate data is available for reporting of the fleet management
program, we recommend that the:

   2.	 Director of OFMR develop and implement procedures to periodically reconcile
       vehicle information from FleetWave to ERP.

   3.	 Associate Director of the Personal Property Management Division of

       OCON&PPM finalize and implement procedures to periodically reconcile

       vehicle information from ERP to FleetWave.


To ensure fleet cards are properly maintained and controlled we recommend that
the Director of OFMR:

   4.	 Develop and implement Part 3 – Fleet Cards in accordance with SD 322.

   5.	 Develop policies and procedures that ensure all vehicle fleet cards are

       properly assigned in FleetWave.





                                         10
SMITHSONIAN INSTITUTION                           OFFICE OF THE INSPECTOR GENERAL


III. Smithsonian’s Adherence to Executive Order 13514

Management appears to be adhering to EO 13514 by developing a Strategic
Sustainability Performance Plan, acquiring alternative fuel vehicles, and reducing
petroleum usage. We based our conclusions regarding petroleum usage and
alternative fuel consumption on the data reported in the Sustainability Performance
Plan. The performance plan outlines goals to reduce petroleum use and increase
alternative fuel consumption. The plan also reports on the Smithsonian’s progress
towards meeting the targets for these goals up through fiscal year (FY) 2011.
Based on the information in the plan, it appears that the Smithsonian is meeting or
exceeding the stated goals regarding the reduction of petroleum usage and
alternative fuel consumption. In addition, we found that between FY 2010 and
2012, 77 percent of all Smithsonian vehicle acquisitions were alternative fuel
vehicles. This exceeds the goal of 75 percent required for federal agencies.




                                        11
SMITHSONIAN INSTITUTION	                           OFFICE OF THE INSPECTOR GENERAL


                                                                       Appendix A

OBJECTIVES, SCOPE, AND METHDOLOGY

The objectives of this audit were to (1) evaluate the controls management has
established to minimize the costs of motor vehicle operations, including
maintenance, petroleum use, purchase, and disposal; and (2) assess whether the
Smithsonian is achieving the sustainability goals outlined in Executive Order 13514,
Federal Leadership in Environmental, Energy, and Economic Performance and other
applicable guidance.

To accomplish our objectives, we reviewed Executive Order 13514 and
accompanying handbook and guidance published by the Department of Energy, as
well as relevant policies from the Office of Management and Budget and the U.S.
General Services Administration. We reviewed internal Smithsonian directives,
manuals, and the Strategic Sustainability Performance Plan. We also reviewed
several fleet audit reports from various Offices of Inspectors General (OIG),
including the Smithsonian’s OIG audit report, Personal Property Accountability,
November 18, 2009; and General Accountability Office report, Federal Vehicle
Fleets, Adopting Leading Practices Could Improve Management, published July
2013.

The Smithsonian defines motor vehicles as any personal property assets that are
self-propelled, or designed to be self-propelled, such as: cars, trucks, vans,
pickups, buses, boats, ships, golf-carts, mini-transport vehicles, some types of
rigging apparatus, and motorcycles. For purposes of this audit, we excluded boats
and ships from our review.

To obtain an understanding of the Smithsonian’s fleet management controls for
motor vehicle operations, we interviewed OFMR personnel as well as OCON&PPM.

To evaluate the controls that management established to minimize costs we
reviewed the policies and procedures in place to manage and oversee maintenance,
petroleum use, purchasing, and disposal.

   •	 Maintenance — We met with OFMR employees responsible for acquiring and
      controlling the distribution of parts and reporting of maintenance costs. We
      reviewed purchase card data, supporting invoices, and requests for parts as
      well as the distribution process to determine if adequate controls were in
      place.




                                        A-1

SMITHSONIAN INSTITUTION	                           OFFICE OF THE INSPECTOR GENERAL


                                                                        Appendix A

OBJECTIVES, SCOPE, AND METHDOLOGY (Continued)

   •	 Petroleum Use — We reviewed fleet card data to determine if purchases were
      appropriate based on cost, mileage, frequency of fuel purchases, and vehicle
      capacity.

   •	 Purchasing — We reviewed the process Smithsonian uses for acquiring new
      vehicles and compared it to standard government practices.

   •	 Disposal — We reviewed the process Smithsonian uses for disposing of

      vehicles and compared it to standard government practices.


We selected a judgmental sample of maintenance records and fleet card data for
testing. We reviewed 30 maintenance transactions, 10 from each year between
FY2010 and FY2012, valued at $400 or greater. Fleet card data reviewed were
based on cost, mileage, and frequency of fuel purchases. Forty-nine out of a total of
250 active fleet cards between FY2010 and FY2012 were reviewed. Because both
samples were judgmentally selected, we cannot project the results of our findings
related to these areas across the population.

In order to assess the sufficiency and appropriateness of computer-processed
information, we obtained access to OFMR’s FleetWave system and downloaded
vehicle asset reports from the Enterprise Resource Planning system. We compared
the data in the two systems.

We reviewed Smithsonian policies and procedures established to implement
Executive Order 13514 and related federal guidance. Specifically, we reviewed the
Smithsonian’s Strategic Sustainability Performance Plan; analyzed the number of
alternative fuel vehicles based on new acquisitions; and reviewed the Federal
Automotive Statistical Tool reporting process between FY2010 to FY2012.

We conducted this performance audit in Washington, DC, Arlington, VA, as well as
Suitland and Landover, MD from March 2013 through September 2013, in
accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence we obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.




                                        A-2

SMITHSONIAN INSTITUTION          OFFICE OF THE INSPECTOR GENERAL


                                                   Appendix B
MANAGEMENT’S REPONSE




                          B-1

SMITHSONIAN INSTITUTION             OFFICE OF THE INSPECTOR GENERAL


                                                      Appendix B
MANAGEMENT’S RESPONSE (Continued)




                             B-2

SMITHSONIAN INSTITUTION             OFFICE OF THE INSPECTOR GENERAL


                                                      Appendix B
MANAGEMENT’S RESPONSE (Continued)




                             B-3

SMITHSONIAN INSTITUTION                       OFFICE OF THE INSPECTOR GENERAL



                                                               APPENDIX C


MAJOR CONTRIBUTORS TO THIS REPORT

Joan Mockeridge, Supervisory Auditor
Teena Propst, Auditor-in-Charge
Matthew Colebank, Auditor




                                       C-1

